letters on d
                                 CLOSEOUT FOR M92070033


                                         that year and on co'nckrnnig

                     of the Departmentj -1                                            -
        OIG received an allegation-bx telwhone on June 5. 1992. subseauentlv elaborated in


                                                                      at the university
                                                                                              ~




                                                                                        possible
                      data fabrication in a grant proposal submitted to NSF. The complainant,

                         for and was granted confidential informant status. He alleged that the
                                                                                                  --




and that any assertion to the contrary in his proposals to NSF would constitute fabrication.

       In both of his ~ r o ~ o s a l sthe
                                        . subiect listed two sources of current s u ~ ~ othat
                                                                                          r t the



OIG wrote to the subject asking him for documentation of his support from these two projects.
The subject has now provided us with letters on off~cialstationery from the president of the
association and board of directors of the foundation confirming the existence of these projects
and explaining their -purposes,
                         -      funding, and terms of operation. OIG concludes that these letters
satisfa&orily document the existenceof these projects and confirm the subject's statements in
his proposal.

        OIG asked the complainant to clanfy his allegation concerning data fabrication and, in
particular, what he meant by "meaningful" data. The complainant informed us that he did not
intend to imply that the subject lacked preliminary data of any kind. The complainant also stated
that he had no reason to believe that the subject could not have collected preliminary data using
equipment other than the instrument he had named in his e e r . The subject's proposal
clearly identifies his data as preliminary and states that it was collected using equipment at the
                                      OIG thus has no reason to believe that the subject has in any
way misrepresented the quality of his data or how they were collected.

        The complainant also alleges in his  m             letter various fmancial improprieties
with regard to the foundation's bookkeeping and its relation to the university. These alleged
improprieties date otd-           have been investigated by the university itself. We have no
allegation suggesting that these improprieties involve NSF awards. The foundation played no
formal role in the subject's NSF awards, which were always made to the university itself. Our
inquiry did not find evidence that NSF has funded the foundation in any way, including ways
that do not involve the subject as a principal investigator. Any improprieties in the

                                           page 1 of 2
administration of the foundation are thus not within our jurisdiction.

       At the &@&'s     request, OIG sent him a letter informing him that we were closing the
case and had ~~~n        to believe him guilty of any misconduct involving NSF proposals and
                 '?.:
awards.           .-



        This case is closed and no further action will be taken.




Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight




%z            *
              z-
James J. wolenik
                              7/y75
Assistant Inspector General for Oversight




Counsel to the Inspector General



cc:     Signatories
        Inspector.General.

                                           page 2 of 2


                                               92-33
